DOE F 1325.8
(08-93)                                                                                Department of Energy
United States Government


Memorandum
         DATE:       March 21, 2008                                 Audit Report Number: OAS-L-08-08
    REPLY TO
     ATTN OF:        IG-321 (A07LV042)
                                                                                                       Site
     SUBJECT:        Audit Report on "Accountability of Sensitive and High Risk Property at the Nevada
                     Office"

               TO:   Acting Manager, Nevada Site Office

                     INTRODUCTION AND OBJECTIVE


                      and control over sensitive and high risk property because of the vulnerability to
                      loss, theft or misuse and its potential impact on national security interests or
                      proliferation concerns. Items such as portable and desktop computers, ammunition.
                      and firearms are examples of sensitive property. In addition, federal regulations
                      require that Departmental organizations and designated contractors account for and
                      control govemroent-owned high risk property, such as body armor and gas masks,
                     .throughout its life cycle. Principal site contractors at the Nevada Site Office
                      (Nevada) who are required to account for and control sensitive and high risk
                      property include: Wackenhut Services, Inc. (Wackenhut), Chugach McKinley, Inc.
                      (Chugach), and National Security Technologies, LLC,

                     We conducted this audit to determine whether Nevada and its contractors could
                     account for sensitive and high risk property.

                     CONCLUSIONS AND OBSERVATIONS

                     Although Nevada and its contractors generally adhered to the requirements for
                     sensitive and high risk property established in 41 CFR 109, Department of Energy
                     Property Management Regulations, we found instances ofnoncompliance with the
                     requirements. Specifically:

                            SWackenhut had not maintained life cycle accountability for body armor and
                             gas masks assigned to protective force personnel. For example, Wackenhut
                             was unable to account for body armor that had been assigned to 15
                             employees who were no longer employed by Wackenhut.

                        *      Wackenhut had not required reviews of body armor and gas masks to ensure
                               the equipment was no longer usable.prior to disposal. as required by federal
rim   I-T-CzJiOo   uo-.   -'   r    uru .                                                                Iiu;r.




                                                                                                              and
                                             regulations. To its credit, in January 2008, Wackenhut developed
                                                                                                              are
                                             implemented procedures to ensure that body armor and gas masks
                                             screened for continued usefulness prior to disposal.

                                            SNevada bad not recovered a sensitive government-owned computer and
                                             electronic equipment assigned to a contractor upon completion of work in
                                             December 2002. There was no documentation supporting any efforts by
                                             Nevada to recover the property from the contractor, or to identify it as lost
                                             or stolen property for follow-up by appropriate authorities.

                                            SChugach had not always ensured that former employees accounted for their
                                             assigned government property prior to their departure. For example, when
                                             two employees left in 2007, Chugach assigned their sensitive property items
                                             to a new custodian without performing a physical verification of the
                                             equipment. According to the newly assigned custodian, the property list
                                             contained items that she had never seen or used; yet it was her responsibility
                                             to account for the property. We performed an inventory in September 2007
                                             of the 190 items assigned to the
                                                                           I  .
                                                                                custodian and could not locate 13 items,
                                               ,. *•»"r,
                                                   .        'L-."t-'   '.-irl Pcke   ti PC   Srorf
                                                                                             4 v     floenr       itcmi   had kbn   re1i-,nrtl .

                                             as lost or stolen.

                                   Finally, we found that Nevada had not fully implcmented inventory controls over
                                   Department of Energy Common Operating Environment program computer
                                   equipment. Specifically, Nevada had not assigned property numbers to 40
                                   computers it received from the Department's Office of the Chief Information
                                   Officer in October 2006. nor entered the computers into property records. Nevada
                                   had not accounted for the computers due to confusion about responsibility for
                                   property accountability. As a result of our audit, in. February 2008, the
                                   Department's Office of Civilian Radioactive Waste Management was tasked with
                                   numbering and tracking these computers pending a Departmental decision on who
                                   will ultimately be responsible for the computers.

                                   SUGGESTED ACTIONS

                               To improve compliance with sensitive and high risk property requiremonts, we
                               suggest that the Nevada Site Office Manager:

                                             1. Ensure that contractors account for high risk property throughout its life
                                                cycle in accordance with Federal Regulation, 41 CFR 109, Department
                                                of Energy PropertyManagement Regulations; and,

                                             2. Ensure that government property assigned to contractor employees is
                                                properly accounted for when the contract is completed or when
                                                employment is tenninated.

                               Since we are not making formal recommendations, a formal response is not
                               required. We appreciate the cooperation of your staff and the contractor officials
                               who provided information or assistance.


                                                                            2
      SCOPE AND METfHODOLGY
                                                                                and on
      We reviewed sensitive and high risk property purchased, issued, excessed
                                                                              at the
      hand during fiscal years 2005 through 2007. Our review was conducted
      following locations in L4s Vegas, Nevada: Nevada Site Office;  National  Security
                                                                         Inc.; Stoller-
      Technologies, LLC; Chugach McKinley, Inc.; Wackenhut Services,
      Navarro Joint Venture; Desert Research Institute; Raythcon/NCI; Remote Sensing
      Laboratory, Nellis Air Force Base; and the Nevada Test Site, Mercury, Nevada.
      The review was performed between May 2007 and January 2008.

      We conducted interviews with Nevada Site Office officials, Office of the Chief
      Information Office officials and various contractors regarding their management
      and oversight of sensitive and defense related high risk property. In addition, we
      judgmentally selected and tested sensitive property from the various contractors;
      inventoried protective force high risk property at the Nevada Test Site and
      inventoried Department of Energy Common Operating Environment desktop
      computers at the Nevada Site Office.. Finally, we analyzed data from. the property
      management databases including Sunflower Assets, Building Maintenance and
      Property Management and. Tracker.

      We conducted our audit in accordance with generally accepted government auditing
      standards. Those standards require that we plan and, perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our findings and
      conclusions based on our audit objectives. We believe that the evidence obtained
      provides a reasonable basis for our findings and conclusions based on our audit
      objectives. Accordingly, we assessed internal controls and compliance with laws
      and regulations to the extent necessary to satisfy the audit objective. Because our
      review was limited, it would not necessarily have disclosed all internal control
      deficiencies that may have existed at the time of our evaluation. We relied on
      computer-processed data to accomplish the audit objective and conducted limited
      testing on the data we used to satisfy the audit objective.




                                           David Sedillo, Director
                                           National Nuclear Security Administration
                                            Audits Division
                                           Office of Inspector General


cc:   Team Leader, Audit Liaison Team, CF-1.2
      Audit Liaison, NNSAINevada Site Office
      Director, Policy and Internal Controls Management, NA-66




                                      3
